                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street N.E.
                                                      Washington, DC 20002



.
                      Amtrak Employee Tested Positive for Marijuana
                                 Case Number 10-041
                                    June 18, 2010

The OIG received information that a Providence Maintenance of Way Base employee had
admitted marijuana use to a North Providence Police Officer during a traffic stop. At that time
the employee also claimed to the officer that the employee could successfully evade Amtrak’s
drug testing program. The allegation was referred to Amtrak’s Drug and Alcohol Programs
Manager for investigation. The employee submitted to a reasonable suspicion drug test and
tested positive for marijuana. Rule G was implemented and the employee was placed into
treatment under guidelines of the Employee Assistance Program.
